                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: A05060031                                                                           Page 1 of 1



                 On 3 June 2005 an IVSF program officer' contacted OIG about allegations from a proposal
          reviewer2 that a proposal under review3 contained false statements and representations about the
          willingness of another federal agency4 to financially support aspects of the proposal.

                  Upon inquiry, the subject principal investigator (PI)' advised that he had spoken to an
          official6of the other agency and received assurances of support (contingent on Congressional action),
          but thereafter found that the program solicitation contained restrictions on letters of endorsement that
          prevented him from obtaining these assurances in writing. He attempted to write the proposal to
          convey the assurances in "anonymous" form, anticipating that reviewers would be able to infer the
          details of the funding arrangement without questioning the basic premise of the other agency's
          support.

                  The official of the other agency substantially corroborated the PI'S version of events, but
          indicated that because of budgetary and administrative reasons no monetary commitments could be,
          or were, made, either generally or in any specific amount.

                  Under the circumstances the subject had a plausible basis for making the representations in
          the proposal. The statements are best characterized as optimistic extrapolations of valid expressions
          of support by the other federal agency. There appears to be no reasonable substance to the allegation.

                     Accordingly, this case is closed.




NSF OIG Fonn 2 ( 1 1/02)
